     DEPARTMENT OF HEALTH AND HUMAN SERVICES                             Office of Inspector General

                                                                         Office of Audit Services, Region V
                                                                         233 North Michigan Avenue
                                                                         Suite 1360
                                                                         Chicago, IL 60601
October 19, 2011

Report Number: A-05-11-00039

Michael B. Colbert
Director
Ohio Department of Job and Family Services
30 East Broad St.
Columbus, OH 43215

Dear Mr. Colbert:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of the Ohio Department of Job and Family Services’
Title IV-E Foster Care and Adoption Assistance Training Costs. We will forward a copy of this
report to the HHS action official noted below.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please direct them to the HHS action
official. Please refer to report number A-05-11-00039 in all correspondence.

                                                    Sincerely,



                                                    /Sheri L. Fulcer/
                                                    Regional Inspector General
                                                      for Audit Services

Enclosure

HHS Action Official:

Mr. Kent Wilcox
Regional Administrator
Administration for Children and Families
U.S. Department of Health and Human Services, Region V
233 North Michigan Avenue, Suite 400
Chicago, IL 60601
Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




   REVIEW OF THE OHIO
  DEPARTMENT OF JOB AND
FAMILY SERVICES’ TITLE IV-E
FOSTER CARE AND ADOPTION
ASSISTANCE TRAINING COSTS




                    Daniel R. Levinson
                     Inspector General

                      October 2011
                      A-05-11-00039
                    Office of Inspector General
                                        http://oig.hhs.gov


The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General

The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                            Notices


     THIS REPORT IS AVAILABLE TO THE PUBLIC
               at http://oig.hhs.gov



 Section 8L of the Inspector General Act, 5 U.S.C. App., requires that
 OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                       INTRODUCTION

BACKGROUND

Title IV-E Foster Care and Adoption Assistance Program

Pursuant to Title IV-E of the Social Security Act (the Act), the Department of Health and Human
Services, Administration for Children and Families (ACF), Children’s Bureau administers the
foster care and adoption assistance program. The foster care program finds and supports
temporary placements for children who cannot remain safely at home. The adoption assistance
program finds and supports permanent placements for children who cannot return safely to their
homes. The Federal Government and States share in the costs of administering, staffing, and
training for these programs.

Federal Reimbursement Requirements

Title IV-E, section 474(a)(3)(A), of the Act authorizes Federal reimbursement to States at a 75-
percent matching rate for training of personnel employed or preparing for employment by the
State or local agency administering the Title IV-E program. Title IV-E regulations
(45 CFR § 1356.60(b)) state that Federal reimbursement is available at 75-percent for the costs
of short- and long-term training at educational institutions as well as for in-service training.
Furthermore, the State agency may claim costs at the enhanced reimbursement rate for the
training of foster care and adoptive parents. The regulations require that in-service training or
training at educational institutions be provided pursuant to the provisions of 45 CFR §§ 235.63–
235.66(a), which specify who may be trained, the types of expenses that are allowable, and the
sources of funds for the State’s share of expenditures.

Section 474(a)(3)(E) of the Act and 45 CFR § 1356.60(c) provide for a 50-percent Federal
reimbursement rate for administrative expenditures. Training costs not allowable at the
enhanced reimbursement rate may be claimed at this rate provided the costs are included in the
State’s cost allocation plan.

Ohio’s Title IV-E Training Program

In Ohio, the Department of Job and Family Services (State agency) is responsible for Federal
foster care and adoption assistance programs. It is the State agency’s responsibility to provide
services for children in its custody, including educational, developmental, health, mental health,
social, and permanency needs.

The Ohio Child Welfare Training Program (OCWTP) is a comprehensive, competency-based,
in-service training system for staff, managers, and resource families in Ohio’s 88 county Public
Children Services Agencies. Designed as a state/county, public/private collaboration, the
OCWTP develops and provides training activities to promote the knowledge and skills needed to
assure protection and permanence for Ohio’s abused and neglected children. To accomplish this
goal, the State agency contracts with several universities to offer training for all new child
welfare professionals to provide knowledge of current social work precepts. In addition, the

                                                 1
State agency administers regional training sites as well as providing resources for the local
counties’ Public Children Services Agency to provide training.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether Title IV-E Foster Care and Adoption Assistance training
costs claimed at the enhanced 75-percent Federal Financial Participation (FFP) rate from July 1,
2008, through September 30, 2010, were allowable under Federal regulations and the approved
State training plan.

Scope

From a random stratified sample, we reviewed the State agency’s Title IV-E foster care and
adoption assistance training costs claimed at the enhanced 75-percent FFP rate totaling $589,145
($441,859 Federal share) for the period of July 2008 through September 2010. We limited our
review of internal controls to obtaining an understanding of the State agency’s procedures for
claiming foster care and adoption assistance training costs for reimbursement under Title IV-E.

We performed fieldwork from December 2010 through June 2011 at the State agency in
Columbus, Ohio.

Methodology

To accomplish our objective, we:

   •    reviewed applicable Federal laws and regulations, and ACF’s Child Welfare Policy
        Manual;

   •    reviewed the State cost allocation plans;

   •    reconciled total foster care and adoption assistance training costs claimed on the quarterly
        Federal Title IV-E financial reports to supporting documentation for July 2008 through
        September 2010;

   •    selected a random stratified sample of 120 of the 6,592 training vouchers;

   •    reviewed supporting documentation to determine whether training costs claimed under
        Title IV-E were properly allocated between Federal and State programs;

   •    reviewed University Partnership Program contracts with the eight participating
        universities;

   •    reviewed course descriptions for training costs claimed for enhanced reimbursement; and


                                                    2
   •   discussed our results with State officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

RESULTS OF AUDIT

The State agency’s claims for Title IV-E Foster Care and Adoption Assistance training costs
totaling $588,220 ($441,165 Federal share) at the enhanced 75-percent FFP rate from July 1,
2008, through September 30, 2010 were generally allowable, supported, and allocated in
accordance with Federal and State requirements.




                                                 3
